OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’s
EFFECTIVENESS IN
COMPLYING WITH TIAHRT
VOLUNTARY FAMILY
PLANNING REQUIREMENTS
AUDIT REPORT NO. 9-000-08-005-P
February 8, 2008




Washington, DC
Office of Inspector General


February 8, 2008

MEMORANDUM

TO:                  GH/PRH, Director, Scott R. Radloff
                     M/OAA, Director, Maureen Shauket

FROM:                IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Effectiveness in Complying with Tiahrt Voluntary Family
                     Planning Requirements (Report No. 9-000-08-005-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in appendix II.

This report contains six recommendations intended to strengthen controls and procedures
related to (1) ensuring that regular financial and compliance audits cover whether or not
partners have violated the Tiahrt amendment; (2) communicating the amendment’s
requirements to family planning partners; and (3) preparing missions to investigate, remedy,
and report potential violations. Based on your comments and the documentation you provided,
final action has been taken on recommendations 1, 3, 4, 5, and 6, and a management decision
has been reached on recommendation 2.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Has USAID effectively implemented controls and procedures to help ensure
     that USAID and its implementing partners are complying with the Tiahrt
     amendment requirements? ......................................................................................... 4

          The Bureau for Global Health Could Help Improve A-133 Audits of
          Family Planning Partners ...................................................................................... 5

          USAID’s Contracting Regulations Regarding the Tiahrt
          Amendment Provisions Need Updating ................................................................ 7

          Three Family Planning Contracts Contained an Obsolete Clause
          Instead of Tiahrt Amendment Provisions .............................................................. 9

          Some Family Planning Agreements Did Not Include Tiahrt
          Amendment Provisions ...................................................................................... 10

          Missions Need Procedures to Investigate, Remedy, and Report
          Violations............................................................................................................. 12

Evaluation of Management Comments ....................................................................... 15

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 20

Appendix III – Audit Reports Issued............................................................................ 28

Appendix IV – Recommendations to Missions Audited ............................................ 29

Appendix V – Tiahrt Amendment Requirements........................................................ 31
SUMMARY OF RESULTS
This audit report summarizes the results of three Office of Inspector General audits
conducted at selected USAID missions 1 and fieldwork performed at USAID’s headquarters
in Washington, DC. Appendix III lists the three mission-level audit reports. Appendix IV
presents a summary of audit recommendations included in the three reports.

The audit objective was to determine whether USAID has effectively implemented controls
and procedures to help ensure that USAID and its implementing partners comply with
the Tiahrt amendment requirements (see appendix V). 2 To answer this objective, the
Office of the Inspector General addressed whether or not (1) USAID or its partners had
violated the Tiahrt amendment; (2) USAID had communicated the Tiahrt amendment’s
requirements to its partners; (3) USAID had improved controls and procedures in response
to the Tiahrt amendment violations that arose in Guatemala; and (4) USAID had put in
place procedures to investigate, remedy, and report on violations (see page 3).

With exceptions, USAID headquarters and the three missions audited had effectively
implemented controls and procedures to help ensure that USAID and its implementing
partners complied with Tiahrt amendment requirements. We concluded that the efforts
of USAID/Ethiopia and USAID/Bolivia were effective, and the efforts of USAID’s
Washington headquarters and USAID/Mali were partially effective (see page 4).

Beyond the two violations USAID reported to Congress in fiscal year 2006, the audits
found no evidence of additional Tiahrt amendment violations (see page 5). However,
the missions and headquarters had mixed performance in communicating Tiahrt
amendment requirements to family planning partners (see pages 6–7). Headquarters
instituted improvements to controls and procedures in response to the weaknesses
found in Guatemala (see page 11). Headquarters showed initiative in training mission
and partner personnel, and in assessing country programs to provide useful reviews,
identify weaknesses, and make many recommendations to help prevent violations (see
page 7). However, it was still sharing its lessons learned with the three missions when
audit work was begun in those locations, so their responses were mixed (see page 11).
Also, the three missions we audited had not implemented procedures to investigate,
remedy, and report violations when the fieldwork for each mission audit began (see
page 13).

Therefore, USAID should strengthen controls and procedures related to the following:
(1) ensuring that regular financial and compliance audits cover whether or not partners
have violated the amendment, (2) communicating the amendment’s requirements to
family planning partners, and (3) preparing missions to investigate, remedy, and report
potential violations. This report includes six recommendations to strengthen the controls
and procedures used by USAID and its implementing partners to comply with the Tiahrt
amendment’s requirements (see pages 6, 8, 10, 11, and 14).

Appendix II contains the management comments.

1
 Mission programs audited were in Bolivia, Mali, and Ethiopia.
2
 The Tiahrt amendment legislated specific requirements for USAID’s family planning projects.
The requirements address free and informed choice related to family planning assistance.
                                                                                          1
BACKGROUND
USAID’s Bureau for Global Health, Office of Population and Reproductive Health
provides support to more than 50 country programs for family planning throughout the
world, and provides technical assistance and training to missions and performs country
program assessments. USAID’s family planning programs help couples determine the
number and spacing of their children, reduce unintended pregnancies, promote maternal
and child health, and stabilize world population. USAID’s policy for family planning
assistance is to support the principles of voluntarism and informed choice.

The Tiahrt amendment, first enacted in the Omnibus Consolidated and Emergency
Supplemental Appropriations Act, 1999 (Public Law No. 105-277), reaffirmed and
elaborated on standards for voluntary family planning service delivery projects to protect
individual clients receiving family planning services. It required that voluntary family
planning projects comply with five requirements, which are detailed in appendix V.

In fiscal year 2006, USAID twice reported violations of the amendment to the Committee on
Appropriations of the House of Representatives. The violations were the Agency’s second
and third reported since the amendment was first enacted into law. In May 2006, the
Agency reported that requirements 1 and 2(B) (see page 31) were violated by a
USAID-supported family planning partner in Guatemala. In July 2006, USAID notified the
committee that requirement 1 was violated in two local government units implementing
USAID-supported family planning activities in the Philippines.

USAID’s Administrator is required to report to Congress within 60 days after the
Administrator determines a violation has occurred. However, USAID/Guatemala took
9 months to notify USAID/Washington of the suspected violations in Guatemala and
another 2 months for USAID/Washington to notify the committee that violations had
occurred. In the committee’s view, this amount of time to report to Congress was “not
acceptable.” 3

As a result of the violations in Guatemala and the delay in reporting them, the committee
requested that USAID report to it on the Office of Inspector General’s audit findings and
actions taken. 4 The committee also requested that USAID report on actions taken to
ensure that the requirements related to family planning be explicitly communicated to all
implementing partners, and it suggested that USAID and its missions both investigate and
remedy violations with dispatch and ensure that violations are communicated to both
Agency officials and Congress.

Following the report of the Philippine violation and further demonstrating congressional
interest in USAID’s compliance with the amendment, Congressmen Tiahrt and Smith
requested a meeting in December 2006 with the Administrator to discuss what USAID was
doing to avoid future violations. In written communications, Congressman Tiahrt made

3
  House Report 109-486, Foreign Operations, Export Financing, and Related Programs
Appropriations Bill, 2007 (unenacted).
4
  Audit of Compliance with the Tiahrt Amendment under USAID/Guatemala’s Cooperative
Agreements with the Family Welfare Association of Guatemala (APROFAM), audit report
1-520-06-007-P, issued August 21, 2006.


                                                                                        2
several requests of USAID. These requests touched on matters such as improving the
quality of training to include examples of prohibited practices, and strengthening mission
accountability and procedures to ensure full compliance with requirements.


AUDIT OBJECTIVE
This audit was intended to be responsive to congressional interest in the Guatemala
Tiahrt amendment violations and USAID actions to help ensure compliance with the
Tiahrt amendment’s requirements. This audit incorporates the results of the three
mission audits and fieldwork performed at USAID headquarters to answer the following
question:

•   Has USAID effectively implemented controls and procedures to help ensure that
    USAID and its implementing partners are complying with the Tiahrt amendment
    requirements?

To answer the audit objective, the auditors addressed the following four questions:

•   Have USAID or its partners violated the Tiahrt amendment?

•   Has USAID communicated the Tiahrt amendment’s requirements to its family
    planning partners?

•   Has USAID, in response to the issues that arose in Guatemala, implemented
    controls and procedures that improve compliance?

•   Has USAID implemented procedures to investigate, remedy, and report on
    violations?

Please refer to appendix I for details of this audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS
Has USAID effectively implemented controls and procedures to
help ensure that USAID and its implementing partners are
complying with the Tiahrt amendment requirements?
With exceptions, USAID headquarters and the three missions audited had effectively
implemented controls and procedures to help ensure that USAID and its implementing
partners are complying with the Tiahrt amendment requirements. We concluded that the
efforts of USAID/Ethiopia and USAID/Bolivia were effective, and the efforts of USAID’s
Washington headquarters and USAID/Mali were partially effective.

A significant result is that none of the audits’ fieldwork identified any indications of Tiahrt
amendment violations. The audits did not find any evidence of unlawful practices, such
as the denial of benefits or the use of prohibited numerical targets or quotas. In fact, the
audits found instances of effective communication of comprehensible information about
the benefits and risks of family planning methods that clients selected, as specifically
required by the Tiahrt amendment. For example, in Mali, a country with an adult
illiteracy rate of approximately 80 percent, community health volunteers verbally
communicated information on the contraceptive method selected and provided visual
guidance to demonstrate its proper use.

USAID’s Washington headquarters had an effective process to investigate, remedy, and
report violations. Its country program assessments have provided useful in-depth
reviews, identified family planning program weaknesses, and made numerous
recommendations to remedy such issues. In at least one case, a potential Tiahrt
amendment violation was averted because of such a review.

Nevertheless, USAID’s Bureau for Global Health, Office of Population and Reproductive
Health (PRH) could make improvements beyond those recommended in the mission
audits. Specifically, PRH should: develop improved guidance for auditors testing
whether or not partners have violated the amendment, improve policies and
communication of the amendment’s requirements to family planning partners, and
provide guidance to missions so that they are prepared to respond to potential violations.

Specific findings and recommendations related to PRH and an issue related to
Agencywide controls and procedures are contained in this report. Positive matters as
well as areas needing improvement are presented in detail in the discussions of the four
clarifying questions that all four audit teams used to answer the overall audit objective.




                                                                                             4
Have USAID or its partners violated the Tiahrt amendment?
The audit teams found no evidence at USAID’s Washington headquarters, or in Bolivia,
Ethiopia, or Mali that USAID or its partners had violated any requirement of the Tiahrt
amendment. In May 2006, USAID informed Congress of violations by one of USAID’s
family planning partners in Guatemala. In July 2006, USAID reported to Congress that
violations had occurred in 2 of the approximately 1,500 local government units
implementing family planning activities in the Philippines with USAID support. These two
violations were USAID’s second and third violations reported since the amendment was
enacted in 1998. In both cases, USAID indicated that it had taken action to ensure that
the identified violations have been remedied. Both reports met statutory reporting
requirements relative to timeliness.

Nevertheless, PRH could help improve a key control related to detecting whether or not
USAID or its partners violated the amendment. If used, provisions of Office of
Management and Budget (OMB) Circular A-133 audits could provide improved
assurance that violations have not occurred.


The Bureau for Global Health
Could Help Improve A-133 Audits
of Family Planning Partners

  Summary: OMB Circular A-133 audits of USAID family planning partners did not
  consistently check for compliance with the Tiahrt amendment. A-133 auditors are
  required to make determinations of auditee compliance, but this may not have
  occurred because they lacked USAID-provided guidance in the A-133 Compliance
  Supplement to assist in their testing for Tiahrt amendment compliance.
  Accordingly, the effectiveness of these audits, as controls for identifying Tiahrt
  amendment violations, was reduced.

Testing USAID family planning partner compliance with the requirements of the Tiahrt
amendment in conjunction with OMB Circular A-133 audits was inconsistent. Reviews of
two of five A-133 audits of family planning partners identified instances in which no
testing for Tiahrt amendment compliance was performed. In the instances in which such
testing was performed, the extent of testing varied significantly.

OMB Circular A-133 sets the standards for Federal agencies in the audit of U.S.-based
nonprofit organizations that receive Federal awards. The Circular’s provision E.500
(d)(1) requires that the auditor shall determine whether the auditee has complied with
laws, regulations, and the provisions of grant agreements that may have a direct effect
on each of its major programs. The Tiahrt amendment requirements have such a direct
effect because they require that funds shall be made available only to voluntary family
planning projects that comply with the amendment’s five requirements. The Circular’s
provision E.500 (d)(2) asserts that the principal compliance requirements applicable to
most Federal programs and the compliance requirements of the largest Federal
programs be included in the Compliance Supplement.




                                                                                       5
The extent of A-133 audit testing for compliance of USAID family planning partners with
the Tiahrt amendment varied because USAID did not provide Compliance Supplement
guidance about any family planning requirements, audit objectives, or suggested audit
procedures for determining compliance. The requirements could be included as part of
a USAID Compliance Supplement chapter devoted to family planning programs.
Compliance reviews, in conjunction with A-133 audits of USAID recipients, may continue
to be inconsistently performed until USAID provides auditors with Compliance
Supplement guidance about which areas should be reviewed. One auditor from a firm
contacted during the course of this audit, which had performed no testing of Tiahrt
amendment compliance in a recent A-133 audit of a USAID family planning partner,
suggested that if USAID wanted the provisions to be tested, guidance should be added
to the Compliance Supplement.

If Compliance Supplement guidance on the amendment is provided, violations of the
requirements may be detected in the process of the A-133 audit work. Also, the A-133
audit’s existing mechanism to detect material noncompliances, such as Tiahrt
amendment violations, could be better utilized. Finally, by providing auditors with
information about the requirements as they pertain to USAID family planning programs,
as well as audit objectives and suggested audit procedures for determining compliance
with these requirements, USAID will signal that compliance with Tiahrt amendment’s
requirements is sufficiently important for auditors to review.

Assembling a Compliance Supplement chapter that includes the amendment’s
requirements will likely be a collaborative effort. The Bureau for Global Health’s Office of
Population and Reproductive Health has expertise about the amendment, because it
trains missions and partner organizations about the requirements. USAID’s Office of
Acquisition and Assistance assists the Agency with Compliance Supplement
submissions to OMB. Accordingly, the Office of Inspector General is making the
following recommendation:

   Recommendation No. 1: We recommend that USAID’s director of the Bureau for
   Global Health, Office of Population and Reproductive Health in coordination with
   USAID’s Office of Acquisition and Assistance request that the Office of
   Management and Budget include the Tiahrt amendment’s requirements in a
   Compliance Supplement chapter.


Has USAID communicated the Tiahrt amendment’s requirements
to its family planning partners?
Headquarters and mission communication of the requirements to partners was mixed.
For example, USAID/Ethiopia communicated the Tiahrt amendment’s requirements to its
family planning partner, Pathfinder International, whose implementers in Ethiopia were
observed to be knowledgeable of the requirements. On the other hand, USAID/Mali did
not communicate the requirements effectively. Furthermore, some implementers were
unfamiliar with even basic concepts of the requirements. Additionally, some partner
agreements were deficient in their communication of the amendment’s requirements.
Audit recommendations to address the deficiencies identified at USAID/Mali and
USAID/Bolivia are included in appendix IV.




                                                                                          6
At USAID’s Washington headquarters, the Office of Population and Reproductive Health
(PRH) demonstrated initiative in its training and communication efforts regarding the
specifics of the amendment requirements. PRH provided detailed annual guidance to
missions and partner organizations, in the form of teleconferences, to reinforce the
requirements. These annual teleconferences involved reviewing requirements and
providing guidance on implementing and monitoring program compliance. The meetings
also addressed mission and partner questions and concerns.

PRH has taken steps to update training to missions and partner organizations about the
requirements. PRH updates its training materials on a continual basis, and offers an
online e-learning course. In addition, to monitor where the training sessions are
performed, identify the missions and partners involved in the instruction, and determine
how many attend these sessions, PRH tracks participation of mission and implementing
partners in its training on U.S. statutory and policy requirements, including the Tiahrt
amendment.

Nevertheless, the following three sections discuss deficiencies in the consistency and
implementation of certain USAID regulations.


USAID’s Contracting Regulations
Regarding the Tiahrt Amendment
Provisions Need Updating

  Summary: USAID regulations pertaining to the inclusion of the Tiahrt amendment
  standard provision in family planning contracts were inconsistent and outdated.
  Inclusion of the provision in family planning agreements is a primary control for
  putting USAID family planning partners on notice about the requirements, and for
  enforcing them, so the relevant regulations should be unambiguous. There has
  also been congressional interest in this matter, but USAID has not yet updated or
  corrected the deficiencies in the regulations. By relying on inconsistent and
  outdated regulations, USAID contracting officers may omit the standard provision in
  contracts, and family planning partners, uninformed of and not bound to abide by
  Tiahrt amendment’s requirements, may violate them.

USAID’s regulations regarding inclusion of the Tiahrt amendment standard provision in
grants and cooperative agreements for family planning activities were up to date.
However, USAID’s regulations relative to the standard provision for contracts were
inconsistent and outdated. At least two different required versions of voluntary family
planning standard provisions existed in USAID’s regulations for contracts, and neither
included the amendment requirements for new awards.

One version, required by USAID Acquisition Regulation, subpart 752.7016, was the
“Family Planning and Population Assistance Activities” (August 1986). The Acquisition
Regulation required this clause in all contracts involving any aspect of family planning or
population activities. That clause contained none of the text of the amendment, which
was not surprising since the August 1986 clause predated the amendment by about
12 years.



                                                                                         7
Another version was required by USAID’s Contract Information Bulletin 99-06 (Bulletin
99-06). Bulletin 99-06 required the inclusion of a clause entitled “Voluntary Population
Activities” (March 1999). The March 1999 clause incorporated the amendment
requirements, and Bulletin 99-06 said the March 1999 clause replaced the August 1986
clause. However, the clause set forth in Bulletin 99-06 was ostensibly valid only for
agreements using fiscal year 1999 funding.

Congress has made it apparent that it wants compliance with the provisions of the
amendment because the amendment has appeared in appropriation language every
year since its introduction in 1998. Additionally, in the wake of the violations in
Guatemala, the Committee on Appropriations of the House of Representatives suggested
that USAID should take further action to ensure that requirements related to family
planning are explicitly communicated to all implementing partners.

Inclusion of the amendment language in family planning agreements is one of the
primary controls for putting USAID family planning partners on notice about the
amendment requirements and for enforcing these requirements. Accordingly, USAID’s
regulations for the inclusion of the amendment language in family planning agreements
should be unambiguous.           However, the regulations relating to contracts were
inconsistent and outdated because Agency officials have not yet updated or corrected
the deficiencies in the regulations.

USAID’s inconsistent and outdated regulations relative to the inclusion of the
amendment standard provision in contracts for family planning activities were confusing
and have caused USAID contracting officers to omit Tiahrt amendment requirements
from family planning contracts. Three family planning contracts in Bolivia did not include
the requirements because of confusion about USAID’s regulations. Some family
planning contracts in Washington similarly lacked the requirements (see next
section).

By omitting the standard provision containing the requirements from family planning
contracts, family planning partners are not contractually put on notice about the
requirements. This omission would be problematic for enforcing the requirements if a
violation occurred.

Accordingly, the Office of Inspector General is making the following recommendation to
improve the clarity of the Agency’s contracting regulations related to Tiahrt amendment
requirements:

   Recommendation No. 2: We recommend that the director of the Office of
   Acquisition and Assistance in coordination with the Bureau for Global Health,
   Office of Population and Reproductive Health, and the Office of General Counsel
   amend the Agency’s regulations requiring Tiahrt amendment language in family
   planning contracts so that consistent, coherent, and current policies will exist for
   family planning contracts.




                                                                                          8
Three Family Planning Contracts
Contained an Obsolete Clause Instead
of Tiahrt Amendment Provisions

     Summary: USAID’s Bulletin 99-06 required that the March 1999 standard provision
     be included in contracts for any aspect of voluntary family planning activities.
     However, three contracts among PRH’s 56 centrally managed grants, cooperative
     agreements, and contracts included an obsolete family planning provision. This
     occurred because USAID provided inconsistent and confusing guidance. The
     omission of the correct provision would make it difficult to enforce Tiahrt
     amendment requirements if a violation by the contractor were identified, and the
     inclusion of the obsolete provision is not useful for enforcing the requirements.

Bulletin 99-06 stated that the Tiahrt amendment standard provision, "Voluntary
Population Activities” discussed above, must be included in contracts “involving any
aspect of voluntary family planning activities.” Bulletin 99-06 also indicated that the
March 1999 clause replaces “Family Planning and Population Assistance Activities,” the
August 1986 clause.

However, three contracts (see Table 1) within PRH’s 56 centrally managed agreements
supporting family planning activities did not include the standard provision, “Voluntary
Population Activities” (March 1999). Instead, they included the obsolete provision,
“Family Planning and Population Assistance Activities” (August 1986).

Table 1. PRH Contracts With the Obsolete Family Planning Provision

                              Title                                  Contract No.
    1. Data for Decision Making/Links Media (task order 4) 5    GHS-I-04-03-00037-00
    2. Pfizer Global Pharmaceuticals — (Depo-Provera)           GPO-C-00-04-00025-00
    3. Organon — (Megestron, 3-month injectable)                GPO-C-00-05-00031-00

The three awards did not contain the required March 1999 standard provision because
USAID’s regulations requiring the inclusion of the standard provision were inconsistent
and may have caused confusion.

The omission of the standard provisions would make it difficult for PRH to enforce the
amendment’s requirements should a violation by the contractor be identified. 6 The
standard provision puts partners on notice of the requirements and includes them as a
condition of the agreement. However, the inclusion of the obsolete provision, which did
not reference the requirements, was not useful for enforcing the requirements.
Accordingly, the Office of Inspector General is making the following recommendation to
correct the three agreements:




5
  This award is a task order. Neither it nor its “base agreement” included the amendment
standard provision, “Voluntary Population Activities” (March 1999).
6
  We did not assess the risk that any of the three contractors might violate the amendment.


                                                                                         9
         Recommendation No. 3: We recommend that the director of the Office of
         Acquisition and Assistance amend contracts GHS-I-04-03-00037-00, GPO-C-00-
         04-00025-00, and GPO-C-00-05-00031-00 either to include the current Tiahrt
         amendment standard provision or to remove the obsolete provision.


Some Family Planning Agreements
Did Not Include Tiahrt Amendment
Provisions

     Summary: None of PRH’s four participating agency service agreements related to
     family planning included the requirements of the Tiahrt amendment. Inclusion of
     these requirements in family planning agreements is one of PRH’s primary controls
     for putting USAID family planning partners on notice about the requirements and for
     enforcing them. Because USAID regulations did not require inclusion of the
     requirements in awards of this type, they were not included in the four awards. Not
     including the requirements in awards could be problematic for enforcing the
     requirements and does not assist in communicating them to those carrying out the
     Agency’s family planning programs.

As shown below, none of PRH’s four participating agency service agreements 7
(see Table 2) related to family planning included Tiahrt amendment requirements.

Table 2. PRH Participating Agency Service Agreements Without Tiahrt
Amendment Requirements

              Title                                            Service Agreement No.
    1.     Triumph Technologies                                PHN-P-00-03-00001
    2.     BuCen (SCILS)                                       HRN-P-00-97-00016-00
    3.     CDC (used to be CLM, 3038.01 FPLM/CDC)              HRN-P-00-97-00014-00
    4.     TAACS — HHA/OGHA/PASA                               HFM-P-00-01-00022-00

According to Office of Acquisition and Assistance, PRH, and General Counsel staff,
USAID regulation Bulletin 99-06, covering the inclusion of the amendment requirements
in family planning awards, did not require that participating agency service agreements
include the Tiahrt amendment standard provision. However, in practice, the specific
requirements of Bulletin 99-06 were not the sole determinant as to whether the standard
provision was included in a PRH family planning award. For example, the nature of the
family planning activities covered by an agreement played a role in determining whether
the standard provision was included. Inclusion of the standard provision is one of PRH’s
primary controls for putting USAID family planning partners on notice about the
amendment’s requirements and for enforcing them. The standard provision was not

7
 According to Automated Directives System 306.3.2.2, participating agency service agreements
are agreements with other Federal agencies for specific services or support. The services or
support may be either (1) activity-specific services tied to a specific goal to be performed within a
definite time or (2) continuing general professional support services that have a broad objective,
but no specific readily measurable tasks to be accomplished within a set time.


                                                                                                  10
included in the four participating agency service agreements because USAID policy
does not require that it be included.

A blanket exclusion of Tiahrt amendment requirements from family planning awards,
based on whether or not the award was a participating agency service agreement,
discouraged any assessment of whether including the amendment’s provisions would be
appropriate. Additionally, omitting the standard provision from family planning awards
would be problematic for enforcing the amendment’s requirements if a violation
occurred, and did not assist in communicating the requirements to those carrying out the
Agency’s family planning programs. Accordingly, the Office of Inspector General is
making the following recommendations:

   Recommendation No. 4: We recommend that the director of the Office of
   Acquisition and Assistance in coordination with the Bureau for Global Health,
   Office of Population and Reproductive Health, and the Office of General Counsel
   review participating agency service agreements PHN-P-00-03-00001, HRN-P-00-
   97-00016-00, HRNP-00-97-00014-00, and HFM-P-00-01-00022-00 to determine
   whether the Tiahrt amendment’s requirements apply to them and amend the
   awards to include the Tiahrt amendment standard provision, where appropriate.

   Recommendation No. 5: We recommend that the director of the Office of
   Acquisition and Assistance in coordination with the Bureau for Global Health,
   Office of Population and Reproductive Health, and the Office of General Counsel
   review and revise, where appropriate, the current policy of exempting
   participating agency service agreements from the requirements of the Tiahrt
   amendment.


Has USAID, in response to the issues that arose in Guatemala,
implemented controls and procedures that improve compliance?
PRH has, in response to the issues that arose in Guatemala, incorporated lessons
learned into its own compliance related controls and procedures. These include PRH’s
communications, training materials, and assistance provided to missions. PRH made
one such communication to missions with family planning programs a month after the
violations were reported to Congress, although that communication did not identify itself
as being associated with the violations. Because of its training cycle and the timeframe
in which the Tiahrt amendment violations in Guatemala were reported, missions in
Bolivia, Ethiopia, and Mali were still receiving guidance when audit fieldwork was begun,
so their responses were mixed. The audits discovered instances where the missions
had taken action to address issues similar to those associated with the Guatemala
violations.    However, there were other instances where the controls needed
strengthening, and where necessary, these earlier audits made recommendations to
strengthen mission monitoring. Recommendations were made to both USAID/Bolivia
and USAID/Mali to strengthen monitoring for compliance with the amendment.




                                                                                      11
Has USAID implemented procedures to investigate, remedy, and
report violations?
PRH had an effective process for responding to violations. However, the audits in
Bolivia, Ethiopia, and Mali found that none of these missions had, at the start of these
audits, developed procedures to investigate, remedy, and report violations.

With the assistance of others, PRH performed assessments in countries with family
planning programs, based on requests or specific reports of noncompliance that it
received from missions. Guatemala’s assessment was the only country program
assessment performed where there initially appeared to be a violation. In fiscal year
2006, teams performed assessments in five countries (Guatemala, India, Pakistan,
Rwanda, and the Philippines) based on requests submitted to PRH by the respective
missions.

In all five cases, the assessment teams issued recommendations to resolve issues
identified.    In the assessment report on Pakistan, the team issued 11 such
recommendations to strengthen the country’s family planning program and to mitigate
vulnerabilities. As an indication of the effectiveness of these assessments, the
assessment team helped avert at least one violation in Pakistan.

Assessments also confirmed the violations in Guatemala and the Philippines. Following
confirmation of the two violations, the Administrator reported them to Congress within 60
days as required by the Tiahrt amendment legislation.

While the work of the assessment teams has been useful, a key flaw existed in the lack
of procedures on the part of missions with family planning programs. This point is well
illustrated by the 9 months it took the mission in Guatemala to notify headquarters that
there were indications of a violation, compared with headquarters’ 2-month response in
assessing and reporting the violation. Accordingly, the Office of Inspector General is
making a recommendation to PRH to issue guidance worldwide on developing
procedures to investigate, remedy, and report Tiahrt violations. This is discussed in the
following section.


Missions Need Procedures
to Investigate, Remedy, and
Report Violations

  Summary: At the start of this audit, the missions audited did not have procedures to
  investigate, report, and remedy Tiahrt amendment violations. The Committee on
  Appropriations of the House of Representatives indicated that it wanted USAID to
  investigate and remedy violations and report violations quickly. However, USAID
  has not requested that missions develop such procedures. This could result in
  slow investigation, remedy, and reporting of a violation.




                                                                                         12
When this audit began, USAID/Bolivia, USAID/Ethiopia, and USAID/Mali had not yet
developed procedures to investigate, report, and remedy violations. 8         Similarly,
USAID/Guatemala did not have such procedures in place when its violations were
identified, although an Office of Inspector General audit recommendation prompted the
mission to improve its Tiahrt reporting procedures. Consequently, all four missions
audited had not developed procedures to investigate, report, and remedy violations until
an audit was performed.

The amendment requires that within 60 days after the date on which the Administrator
determines that a single violation of requirements 1, 2, 3, or 5 has occurred, or, in the
case of requirement 4 (see page 31), a pattern or practice of violations has occurred, the
Administrator must submit to Congress a report containing a description of such violation
and the corrective action taken by the Agency.

As discussed, the violations in Guatemala were discovered by USAID/Guatemala in
June 2005. Although the mission acted immediately to remedy the situation, it took the
mission 9 months to notify USAID/Washington of the violations. Even though the
Administrator notified Congress within the required timeframe of 60 days of its
determination of the violations, Congress was not notified of the violations in Guatemala
until May 2006, almost a year after the violations occurred. Subsequent violations in the
Philippines were reported in a more timely manner.

Following the slow response in reporting the Guatemala violations, the Committee on
Appropriations of the House of Representatives communicated an expectation that USAID
and its missions investigate and remedy violations and ensure that all violations are
reported in a timely manner. The committee expected USAID to ensure that
requirements related to family planning are communicated explicitly to all implementing
partners and that violations are quickly investigated, remedied, and communicated to
both Agency officials and Congress.

Historically, reports of violations and indications that violations may have occurred have
been rare. PRH and General Counsel staff indicated that the Guatemala violations were
a unique instance in which there were strong indications that a violation had occurred.
The Philippine assessment, which uncovered violations in that country, was not
prompted by such strong indications. Because violations and indications of violations
are relatively rare, missions did not, without an Office of Inspector General audit, devise
procedures to investigate, remedy, and report violations, and headquarters did not direct
missions to develop such procedures.

Because indications of violations can arise with little notice, it is important that all
missions with family planning programs be prepared to respond quickly so as to avoid a
repeat of the delays in reporting that occurred in Guatemala. USAID policy 9 states that
missions are often in the best position to review the circumstances surrounding
allegations of violations. Similarly, as in Guatemala, missions are well placed to remedy

8
  Subsequently, USAID/Mali developed procedures to investigate, remedy, and report violations,
based on guidance provided by USAID/Washington, and incorporated them into a new mission
order. During the course of the audit, USAID/Bolivia implemented additional procedures for
investigating, remedying, and reporting violations.
9
  “Guidance for implementing the ‘Tiahrt’ Requirements for Voluntary Family Planning Projects”
(April 1999) found at: www.usaid.gov/our_work/global_health/pop/voluntarism.html.


                                                                                           13
violations and report indications of a violation. Not having mission procedures to
investigate, remedy, and report violations could, in the worst case, result in a violation
not being investigated, reported, or remedied. Therefore, the Office of Inspector General
is making the following recommendation:

   Recommendation No. 6: We recommend that the director of the Bureau for
   Global Health, Office of Population and Reproductive Health issue guidance to
   every USAID mission with a family planning program to develop procedures to
   investigate, remedy, and report Tiahrt amendment violations.




                                                                                       14
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, Bureau for Global Health, Office of Population and
Reproductive Health and Office of Acquisitions and Assistance management
(management) agreed with all six recommendations. Management also described the
actions it has taken to address the recommendations. Those comments and our
evaluation of them are summarized below.

In response to recommendation 1, which recommends the inclusion of the Tiahrt
amendment requirements in a Compliance Supplement, management responded that it
had done so and provided documentation that it had sent such a Compliance
Supplement chapter to the Office of Management and Budget on November 6, 2007.
Based on management’s response, we consider that a final action has been reached on
this recommendation.

For recommendation 2, which recommends the amending of USAID regulations covering
the inclusion of Tiahrt amendment language in family planning contracts, management
indicated that an acquisition and assistance policy directive would be issued in February
2008 to USAID contracting and agreement offices about applicable changes to policy.
On this basis, management requested that the recommendation be closed. However,
we note that (1) agreement with the recommendation, (2) a “firm plan” regarding
corrective actions, and (3) a target date for the completion actions are sufficient for a
management decision, not final action. Accordingly, we consider that a management
decision has been reached on this recommendation.

In response to recommendation 3, which recommends the amending of three family
planning contracts, management indicated that two of the contracts had expired and,
therefore, were not modified. Management provided documentation that it had amended
the third award, GPO-C-00-04-00025-00. Based on management’s response, we
consider that a final action has been reached on this recommendation.

In response to recommendation 4, which recommends the review and possible
modification of four participating agency service agreements, management reported that
it determined that the Tiahrt amendment provisions are applicable to one of the awards,
and it provided documentation that it had modified that agreement to include the
provisions. Based on management’s response, we consider that a final action has been
reached on this recommendation.

In response to recommendation 5, which recommends a review and possible revision of
USAID policy relative to participating agency service agreements and the Tiahrt
amendment, management reported on two formats for implementing interagency
agreements. Management concluded that participating agency service agreements
generally do not implement family planning services, but noted another type of
agreement that potentially could. Management suggested that it would coordinate the
revision of the Agency’s Automated Directives System to require the inclusion of family
planning provisions, including the Tiahrt requirements, into the latter type of agreements
                                                                                       15
that anticipate family planning activities. Based on management’s response, we
consider that a final action has been reached on this recommendation.

In response to recommendation 6, which recommends that guidance be issued to
missions with family planning programs about developing procedures to investigate,
remedy, and report violations, management indicated and provided documentation that it
had provided such guidance to all missions on November 16, 2007. Based on
management’s response, we consider that a final action has been reached on this
recommendation.

In addition to the above, management also provided supplementary comments
concerning our draft report. All of the supplementary comments were considered in the
preparation of the final audit report. Appendix II contains management comments in their
entirety.




                                                                                     16
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted Government auditing standards to determine if USAID has effectively
implemented controls and procedures to help ensure that USAID and its implementing
partners comply with the Tiahrt amendment requirements.

Audit fieldwork was conducted at USAID’s headquarters in Washington, DC, and at sites of
three judgmentally selected mission programs 10 between August 21, 2006, and September
18, 2007. The Bureau for Global Health’s Office of Population and Reproductive Health
(PRH) supports family planning programs in more than 50 countries, about 40 percent of
which are in Africa. The audit covered the period from October 1, 2005, through
September 30, 2006, but in cases where documents from that period were not yet
available, such as Office of Management and Budget Circular A-133 audit reports on
USAID family planning partners, we considered documents from prior periods.

Audit work entailed reviews of family planning agreements and policies pertaining to
them; partners and partner service delivery sites and their policies and procedures; and
PRH’s records of training, communications, and country program assessments. For the
mission audits, 36 health facilities in Bolivia, 26 in Ethiopia, and 22 in Mali were visited.
Generally, because of numbers and volumes involved, sampling was performed on a
judgmental basis. Some examples of such sampling include site visits, PRH training of
missions, and the individual missions selected for audit. We also conducted interviews
of family planning, contracting, legal, congressional liaison, and non-USAID audit
personnel.

We identified and assessed internal controls related to ensuring compliance with the
provisions of the Tiahrt amendment. Specifically, we reviewed internal controls related to
the (1) communication of the Tiahrt amendment’s requirements to USAID and partner
employees; (2) improvements in response to the Guatemala violation; (3) monitoring; and
(4) investigating, remedying, and reporting of violations and potential violations.

Methodology
To answer the audit objective, we addressed the following four clarifying questions:

1. Have USAID or its partners violated the amendment?
2. Has USAID communicated the amendment’s requirements to its family planning
   partners?
3. Has USAID, in response to the problems that arose in Guatemala, implemented
   controls and procedures to improve compliance?
4. Has USAID implemented procedures to investigate, remedy, and report violations?



10
     The missions audited were in Bolivia, Mali, and Ethiopia.
                                                                                          17
                                                                               APPENDIX I


The four questions were useful in conducting the audit because they created a logical
structure for the fieldwork steps, promoted unity of format for reporting and, most
important, are questions which we believe are responsive to House Report 109-486. 11

To answer the first question, we conducted inquiries to identify reported violations,
unreported violations, and indications of violations in required audits. Audit teams visited
partner sites where they conducted interviews and inspected facilities to identify any
indications of a violation.

For the second question, we reviewed communications and training provided to mission
and partner staff to see if they communicated the amendment’s requirements. We
evaluated family planning agreements to determine whether they notified partners of the
requirements in accordance with USAID policy, and the assistance provided by USAID’s
contractor, Management Systems International, 12 was also reviewed.

For the third question, we sought to assess training, controls, and procedures
implemented in response to the issues identified in the Office of Inspector General’s
report on Tiahrt amendment violations in Guatemala. 13 We assumed that the Committee
on Appropriations of the House of Representatives’ emphasis on the results of the Office
of Inspector General’s audit of the Guatemala violation would have prompted Agency
action to both communicate these issues to other missions with family planning
programs, and that controls and procedures would be implemented to address similar
vulnerabilities at other locations. In instances where communications, training, controls,
and procedures were not explicitly linked to the Guatemala issues, audit teams
assessed existing controls and procedures to address their sufficiency. For example, we
determined if training covered the identified issues, even if it was not specifically linked
to the Guatemala violations.

Finally, for the fourth question, we identified and assessed PRH and mission policies to
investigate, remedy, and report violations. Again, since the committee characterized the
timeliness of USAID/Guatemala and USAID reporting of the Tiahrt violations in
Guatemala as “not acceptable” and the committee specifically directed “USAID and its
missions to both investigate and remedy violations with dispatch and to ensure that all
violations are reported in a timely fashion,” we assumed that missions with family
planning programs would have developed and implemented procedures to investigate,
remedy, and report violations.

We resolved to render a positive answer to the audit objective if audit fieldwork prompted
favorable conclusions for all four clarifying questions and a negative answer to the
objective if all four were negative. Additionally, if we found any indications of conditions
in violation of the Tiahrt amendment, such a finding would have resulted in an adverse

11
    House Report 109-486, Foreign Operations, Export Financing, and Related Programs
Appropriations Bill, 2007 (unenacted).
12
   The Bureau for Global Health manages a contract with Management Systems International that
provides technical assistance to missions to develop stronger, more systematic monitoring
systems and to assess and address family planning compliance issues.
13
    Audit of Compliance with the Tiahrt Amendment under USAID/Guatemala’s Cooperative
Agreements with the Family Welfare Association of Guatemala (APROFAM), audit report
1-520-06-007-P, issued August 21, 2006.



                                                                                          18
                                                                             APPENDIX I


conclusion relative to the overall audit objective. If fieldwork provided a mix of answers
and/or positive answers with qualifications, we used judgment in determining the impact
of the findings in concluding the overall answer.

For this report’s audit recommendations, in order to determine if a problem area was part
of a widespread problem deserving an Agencywide solution, we set the materiality
threshold that a problem needed to be found in all locations audited. For those where a
problem area was identified in only one or two locations, we resolved that these were
localized issues and would not merit a broad audit recommendation.




                                                                                       19
                                                                                    APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM

To:             IG/A/PA, Director, Steven H. Bernstein

From:           GH/PRH, Director, Scott R. Radloff
                M/OAA, Maureen A. Shauket

Subject:        Comments on Draft Audit Report Regarding USAID’s Effectiveness in
                Complying with the Tiahrt Amendment

Date:           December 20, 2007

The Bureau for Global Health’s Office of Population and Reproductive Health (GH/PRH) and the
Bureau for Management’s Office of Acquisition and Assistance (M/OAA) wish to thank the
Inspector General for the opportunity to review the draft audit report and provide commentary
regarding its findings and recommendations. The overall nature of the IG audit and the ensuing
report is comprehensive, and we appreciate the thoughtfulness with which the IG addressed the
questions relating to GH/PRH’s and M/OAA’s effectiveness in complying with the Tiahrt
Amendment.

GH/PRH and M/OAA also wish to thank the Regional Inspectors General that conducted related
Tiahrt audits of the family planning programs in USAID/Bolivia, USAID/Ethiopia, and
USAID/Mali as part of this overall audit effort. USAID appreciates the thoughtfulness of those
audit findings and recommendations, and commends the efforts of USAID/Bolivia,
USAID/Ethiopia, and USAID/Mali to address and close all of the recommendations made in
those reports.

Finally, GH/PRH and M/OAA note that we take compliance with all family planning
requirements, including the Tiahrt Amendment, very seriously. We appreciate the findings and
recommendations of the Inspector General and the opportunity to strengthen even further our
Agency’s monitoring and compliance activities. The comments provided here are made in the
hope that additional complementary details and input will further enhance the quality of the audit
findings and document GH/PRH’s and M/OAA’s responses to its recommendations.




                                                                                                20
                                                                                     APPENDIX II



General Comments:

USAID takes compliance with the U.S. statutory and policy requirements on family planning
very seriously. GH/PRH continually updates and strengthens its compliance efforts on an
ongoing basis, including addressing control and procedure weaknesses identified as a result of
violations, such as the Tiahrt violation that occurred in Guatemala in 2006. In FY 2006, these
efforts resulted in enhanced training and guidance for Missions that directly addressed the
circumstances of the Guatemala violation and the control and procedure weaknesses identified
there. These efforts have continued throughout FY 2007 and FY 2008 as well. USAID would
like to take this opportunity to highlight many of the actions it has taken to strengthen controls
and procedures relating to monitoring and compliance that are not specifically mentioned in the
audit report.

    •   E-Learning Module on Family Planning Requirements. In May 2007, GH/PRH launched
        an online learning tool to help train USAID and partner staff on the family planning
        requirements, including the Tiahrt Amendment. Among other things, the module
        includes a lengthy discussion of the Tiahrt Amendment, the Tiahrt violations, and
        compliance monitoring activities. Since May 2007, approximately 1,002 USAID and
        outside individuals have taken the E-Learning course.

    •   Training of USAID and Partner Staff. GH/PRH carefully tracks its live trainings on the
        family planning requirements, including the Tiahrt Amendment. During FY 2006 and
        following the Guatemala violation, GH/PRH trained 307 USAID and partner staff,
        focusing in particular on training with partners to improve communication and
        understanding by our implementers. Staff from M/OAA participated in these training
        sessions. These trainings directly addressed several control and procedure weaknesses
        identified in Guatemala. Between November 16, 2005 and August 2, 2007, GH/PRH has
        trained 940 USAID and partner staff.

    •   Updated Training Presentation. GH/PRH routinely updates its training presentation to
        reflect new lessons learned. Following the Tiahrt violation in Guatemala and other
        events, the training presentation was updated in September 2006 and again in December
        2006, to better emphasize the Tiahrt Amendment and compliance monitoring. Among
        other things, new slides discussed the details of Tiahrt violations and presented
        monitoring activities that directly addressed the control and procedure weaknesses
        identified in Guatemala.

    •   Direct Support to Missions. GH/PRH conducts compliance calls with Missions that
        support family planning activities and provides workshops to improve monitoring for
        compliance. Since March 2005, we have conducted 48 calls to all Missions that support
        family planning programs throughout the world. Mission contracting officers regularly
        participate in these compliance calls. In addition, GH/PRH provides technical assistance
        trips at the request of USAID Missions. Among other topics, these activities focus on
        Tiahrt-related issues, including the importance of reporting violations to Congress, as
        well as specific compliance monitoring activities that directly address the control and
        procedure weaknesses identified in Guatemala (e.g., review agreements for proper
        clauses, conduct routine monitoring, discuss compliance with partners).




                                                                                                 21
                                                                                APPENDIX II


Specific Comments:

GH/PRH also requests particular consideration of the following suggested modifications to
the draft audit report.

•   On page 2 (first paragraph, last sentence), the report refers to the principle of
    “volunteerism.” Please change this reference to “voluntarism,” which is one of the
    principles that governs USAID family planning assistance.

•   On page 7 (second paragraph, third sentence), the report states, “GH/PRH tracks
    participation in training on U.S. statutory and policy requirements, including the Tiahrt
    Amendment, by mission and implementing partner staff.” The current organization of
    the sentence implies that GH/PRH tracks trainings conducted by missions and
    implementing partners, when GH/PRH only tracks the training it conducts for mission
    and implementing partners. Please revise the sentence to read, “GH/PRH tracks
    participation of mission and implementing partners in its trainings on U.S. statutory and
    policy requirements, including the Tiahrt Amendment.”

•   On page 7 (text box), the report states that “There has also been Congressional interest in
    this matter, but USAID has not made it a high priority to update or correct the
    deficiencies in the regulations.” Please revise this sentence to read, “There has also been
    Congressional interest in this matter, but USAID has not yet updated or corrected the
    deficiencies in the regulations.” We make this request because the facts and
    circumstances relating to why the Agency has not yet updated its regulations are not
    within the scope of the audit and have not been determined.

•   On page 8 (third paragraph, last sentence), the report states that, “However, the
    regulations relating to contracts were inconsistent and outdated because Agency officials
    had not placed a high priority on updating and correcting them.” Please revise the
    sentence to read, “The regulations relating to contracts, however, are inconsistent and
    outdated.” We make this request because the facts and circumstances relating to why the
    Agency has not yet updated its regulations are not within the scope of the audit and have
    not been determined.

•   On page 8 (fourth paragraph, last sentence), the report states that “Similar omissions were
    in the family planning contracts in Washington.” It appears there is a word missing in
    this sentence, since omissions cannot be “in the FP contracts.” Please revise this sentence
    to read, “Similar omissions were found in family planning contracts in Washington.”

•   On page 9, (summary paragraph, first sentence) the report refers to “Three of 56 GH/PRH
    family planning contracts.” GH/PRH does not have 56 contracts but rather 56 grants,
    cooperative agreements, and contracts, among which 3 contracts did not contain the
    proper clauses. Please change this sentence to “Three contracts among GH/PRH’s 56
    centrally-managed grants, cooperative agreements, and contracts,” as appears in the first
    sentence of the next paragraph.

•   On page 17 (third paragraph, last sentence) the report refers to “USAID’s contractor,
    Management Systems International.” GH/PRH suggests including a footnote that states
    “GH manages a contract with Management Systems International that provides technical
    assistance to Missions to develop stronger, more systematic monitoring systems and to



                                                                                             22
                                                                                APPENDIX II


    assess and address family planning compliance issues.” This footnote will provide
    additional detail about the role of MSI in ensuring compliance with the family planning
    requirements.

•   On page 17 (first paragraph, first sentence), the report refers to House Report 109-486
    without any further explanation concerning the background or context of the Report.
    Please repeat the footnote regarding the House Report, which initially appears on page 2,
    in order to provide additional context on the report and to ensure consistent referencing.

•   On page 17 (fifth paragraph, second sentence), the report describes the Committee’s
    characterization of “USAID/Guatemala and USAID reporting of Tiahrt violations in
    Guatemala as ‘not acceptable.’” This characterization refers to the timeliness of the
    reporting by USAID/Guatemala and USAID. For consistent reference, please change this
    sentence to match the previous reference on page 2 (paragraph 4, last sentence), which
    describes the “amount of time to report to Congress” as “not acceptable.”




                                                                                            23
                                                                                    APPENDIX II


After careful review of the IG draft audit report, GH/PRH and M/OAA agree with the six audit
recommendations. We have implemented a variety of actions suggested by the audit in order to
strengthen internal management and controls for these important issues and for the closure of the
recommendations. These actions are fully described in detail below.

Recommendation No. 1

We recommend that the Director of the Bureau for Global Health, Office of Population and
Reproductive Health in coordination with the Office of Acquisition and Assistance request that
the Office of Management and Budget include the Tiahrt Amendment’s requirements in a
Compliance Supplement chapter.

Based on this recommendation, GH/PRH developed a Compliance Supplement chapter
submission. This compliance supplement chapter was submitted to M/OAA and then sent on to
the Office of Management and Budget (OMB) on November 6, 2007. Documentation of
GH/PRH’s Compliance Supplement chapter submission to OMB is attached as Appendix A.

Based on GH/PRH’s management decision and supporting documentation, GH requests that this
recommendation be closed upon issuance of the final audit report.

Recommendation No. 2

We recommend that the Director of the Office of Acquisition and Assistance in coordination
with USAID’s Bureau for Global Health, Office of Population and Reproductive Health, and
the Office of General Counsel amend the Agency’s regulations requiring Tiahrt amendment
language in family planning contracts so that consistent, coherent, and current policies will
exist for family planning contracts.

M/OAA agrees with this recommendation and is working with USAID’s Office of General
Counsel (GC) and GH/PRH to amend the Agency’s family planning acquisition clauses. The
Agency recognizes the importance of communicating the Tiahrt requirements to partners through
standard provisions and clauses inserted into grants, cooperative agreements, and contracts. As
noted in the audit, the Agency’s regulations relating to Tiahrt requirements for assistance
instruments are fully current, since M/OAA included them in the Agency’s internal regulations,
the Automated Directives Systems (ADS).

For both assistance and acquisition instruments, the Tiahrt requirements were first implemented
in 1999 through a Contract Information Bulletin (CIB 99-06). The Agency utilizes CIBs (now
known as Acquisition and Assistance Policy Directives, or AAPDs) to quickly inform USAID’s
contracting and agreement officers about changes to policy while the Agency updates its formal
regulations. Until CIBs/AAPDs are replaced by changes to the Agency’s formal regulations, they
remain in effect and contracting/agreement officers are required to include all clauses and
standard provisions set forth in CIBs/AAPDs in agreements.

Following issuance of CIB 99-06, the Agency sought to update its regulations to include the
Tiahrt requirements. As the IG reported, for assistance instruments (i.e., grants and cooperative
agreements), USAID has completed this update. The Agency made additional minor changes to
the family planning clauses for assistance instruments in June 2006, which are reflected in the
current ADS.




                                                                                                24
                                                                                   APPENDIX II


To update the family planning clauses for acquisition instruments, M/OAA will issue a new
AAPD by February 29, 2008, to advise Contracting Officers (COs) of the updated acquisition
clause and clarify when it is required in acquisition solicitations and awards. This AAPD will
replace the existing CIB 99-06 and will be effective immediately upon issuance. The update to
the regulations as required under this recommendation will be effected through the issuance of
this AAPD. As stated above, AAPDs are routinely issued when it is necessary to implement
timely changes prior to formal amendment of agency procurement regulations and policy, and are
officially considered a part of the ADS.

While the AAPD will effectively implement the required revisions, M/OAA also intends to
initiate rulemaking procedures to formally amend the U.S. Agency for International Development
Acquisition Regulation (AIDAR) to reflect the Tiahrt Amendment requirements in clauses
applicable to acquisition instruments.

On this basis, M/OAA requests that this recommendation be closed upon issuance of the
Acquisition and Assistance Policy Directive (AAPD) by February 29, 2008.

Recommendation No. 3

We recommend that the Director of the Office of Acquisition and Assistance amend contracts
GHS-I-04-03-00037-00, GPO-C-00-04-00025-00, and GPO-C-00-05-00031-00 either to
include the current Tiahrt amendment standard provision or to remove the obsolete
provision.

M/OAA agrees with the recommendation and has modified contract GPO-C-00-04-00025-00
(Pfizer) to include the updated Tiahrt Amendment clause. This contract was modified on
November 15, 2007 and a copy of the modification is included as Appendix B. Contracts GHS-I-
04-03-00037-00 and GPO-C-00-05-00031-00 expired on October 7, 2006 and August 9, 2007,
respectively, and therefore were not modified.

On this basis, M/OAA requests that this recommendation be closed upon issuance of the final
audit report.

Recommendation No. 4

We recommend that the Director of the Office of Acquisition and Assistance in coordination
with USAID’s Bureau for Global Health, Office of Population and Reproductive Health, and
the Office of General Counsel review Participating Agency Service Agreements PHN-P-00-
03-00001, HRN-P-00-97-00016-00, HRNP-00-97-00014-00, and HFM-P-00-01-00022-00 to
determine whether the Tiahrt amendment’s requirements apply to them and amend the
awards to include the Tiahrt amendment standard provision, where appropriate.

M/OAA, in coordination with GC and GH/PRH, reviewed the four Participating Agency Service
Agreements (PASAs) referenced in the draft report. M/OAA, in conjunction with GC and
GH/PRH, has determined that the Tiahrt requirements are not applicable to three of the
agreements listed in the report, specifically PHN-P-00-03-00001, HRN-P-00-97-00016-00 and
HFM-P-00-01-00022-00. These agreements are staffing mechanisms that enable USAID to
access staff expertise from other federal Agencies and do not include support for family planning
service delivery projects. Therefore, M/OAA has determined that because the Tiahrt
requirements do not apply to these three PASAs, no modification to these agreements is
necessary.


                                                                                               25
                                                                                   APPENDIX II



M/OAA, in conjunction with GC and GH/PRH, has determined that the Tiahrt requirements are
applicable to the fourth agreement (HRN-P-00-97-00014-00) because it does support family
planning service delivery projects for which USAID provides assistance. This PASA was
modified on October 30, 2007 and a copy of this modification is attached as Appendix C.

On this basis, M/OAA requests that this recommendation be closed upon issuance of the final
audit report.

Recommendation No. 5

We recommend that the Director of the Office of Acquisition and Assistance in coordination with
USAID’s Bureau for Global Health, Office of Population and Reproductive Health, and the
Office of General Counsel review and revise, where appropriate, the current policy of exempting
Participating Agency Service Agreements from the requirements of the Tiahrt amendment.

USAID may use various formats for implementing interagency agreements, which include
Participating Agency Service Agreements (PASAs) and Participating Agency Program
Agreements (PAPAs). PASAs and PAPAs are geared to different kinds of relationships
between USAID and the other agency. PASAs contemplate services performed by the other
agency directly for USAID or on USAID’s behalf; these are frequently considered Agency
staffing mechanisms and generally do not implement family planning activities. PAPAs are
most likely to be used where the other agency is implementing a defined program with
relatively little day-to-day direction or supervision from USAID. Although it is rare for
PAPAs to contemplate family planning activities, M/OAA, in conjunction with GH/PRH
and GC, recognizes that such agreements could potentially include family planning activities
to which the Tiahrt Amendment would be applicable.

M/OAA will coordinate with GC and GH/PRH to revise Automated Directives System (ADS)
Chapter 306 “Interagency Agreements,” which provides policy for PAPAs. The revision will
require the inclusion of family planning provisions, to include the Tiahrt requirements, into
PAPAs that anticipate family planning activities. This revision will require coordination between
the three offices as well as agency clearances in accordance with the requirements of ADS
Chapter 501. The planned issuance date for the revised chapter is June 2008. A General Notice
advising the agency of the revised chapter will also be issued at that time.

Due to the extended timeframe for issuance of this policy revision, M/OAA requests that this
recommendation be closed upon issuance of the final audit report. M/OAA will advise the
Management Bureau when the revised PAPA guidance has been issued.

Recommendation No. 6

We recommend that the Director of the Bureau for Global Health, Office of Population and
Reproductive Health issue guidance to every USAID mission with a family planning program to
develop procedures to investigate, remedy, and report Tiahrt Amendment violations.

GH/PRH agrees with this recommendation and sent guidance on developing procedures to
investigate, correct and report violations to all Missions with family planning programs on




                                                                                               26
                                                                                 APPENDIX II


November 16, 2007. Documentation of GH/PRH’s issuance of this guidance to every USAID
mission is attached as Appendix D.

On this basis, GH/PRH requests that this recommendation be closed upon issuance of the final
audit report.




                                                                                               27
                                                                           APPENDIX III



AUDIT REPORTS ISSUED
The following three audit reports were issued as a part of the audits of USAID’s controls
over the Tiahrt voluntary family planning requirements. They are available at USAID’s
Web site at http://www.usaid.gov/oig/public/aud_usaid.htm.

   (1) Report No. 1-511-07-004-P, Audit of USAID/Bolivia’s Effectiveness in Complying
       with Tiahrt Requirements, December 26, 2006

   (2) Report No. 4-663-07-007-P, Audit of USAID/Ethiopia’s Effectiveness in
       Complying with the Tiahrt Requirements, June 29, 2007

   (3) Report No. 7-688-07-003-P, Audit of USAID/Mali’s Effectiveness in Complying
       with Tiahrt Voluntary Family Planning Requirements, August 14, 2007




                                                                                      28
                                                                     APPENDIX IV



RECOMMENDATIONS TO
MISSIONS AUDITED
                   Table 3: Recommendations by Report

 Mission                   Recommendation                           Status
            We recommend that USAID/Bolivia review all
            awards that include any aspect of voluntary
                                                                Recommendation
 Bolivia    family planning for inclusion of the appropriate      Implemented
            Tiahrt amendment standard provision and
            amend as necessary.
            We recommend that USAID/Bolivia establish a
                                                                Recommendation
 Bolivia    plan to ensure that future awards include the         Implemented
            Tiahrt requirements.
            We recommend that USAID/Bolivia implement
            additional controls and procedures identified in
                                                                Recommendation
 Bolivia    this audit report to improve monitoring and           Implemented
            compliance with the requirements of the Tiahrt
            amendment.

 Ethiopia   No recommendations made                              Not Applicable


            We recommend that USAID/Mali reevaluate the
            effectiveness of its current training and
                                                                Recommendation
  Mali      presentation methods for partners and revise          Implemented
            them, emphasizing the importance of all Tiahrt
            amendment requirements.
            We recommend that USAID/Mali require its
            family planning partners to communicate Tiahrt
                                                                Recommendation
  Mali      amendment requirements to their field staff and       Implemented
            subpartners at all levels, and to service
            providers and community health volunteers.
            We recommend that USAID/Mali require its
            family planning partners to review, and amend if
            necessary, all subagreements that contain any
            aspect of voluntary family planning for inclusion   Recommendation
  Mali
            of the current “Voluntary Population Activities”      Implemented
            provision and obtain evidence from its partners
            that all of the relevant subagreements have
            been amended.




                                                                                  29
                                                                  APPENDIX IV


Mission                  Recommendation                           Status
          We recommend that USAID/Mali revise its site
          visit checklist to incorporate verification of
          compliance with all Tiahrt amendment                Recommendation
 Mali
          requirements and require all Health Team              Implemented
          members to use the revised checklist during site
          visits.
          We recommend that USAID/Mali create a
          schedule of site visits to be conducted of each
          partner implementing family planning activities     Recommendation
 Mali
          in the field, so that each partner’s project is       Implemented
          visited and monitored for Tiahrt amendment
          compliance at least once a year.
          We recommend that USAID/Mali develop
          procedures to investigate, remedy, and report       Recommendation
 Mali
          Tiahrt amendment violations and communicate           Implemented
          these procedures to its family planning partners.




                                                                           30
                                                                             APPENDIX V



TIAHRT AMENDMENT
REQUIREMENTS
Voluntary family planning projects subject to the Tiahrt amendment shall meet the
following requirements:

(1) Service providers or referral agents in the project shall not implement or be subject to
quotas, or other numerical targets, of total number of births, number of family planning
acceptors, or acceptors of a particular method of family planning (this provision shall not
be construed to include the use of quantitative estimates or indicators for budgeting and
planning purposes),

(2) the project shall not include payment of incentives, bribes, gratuities, or financial
reward to (A) an individual in exchange for becoming a family planning acceptor, or (B)
program personnel for achieving a numerical target or quota of total number of births,
number of family planning acceptors, or acceptors of a particular method of family
planning,

(3) the project shall not deny any right or benefit, including the right of access to
participate in any program of general welfare or the right of access to health care, as a
consequence of any individual’s decision not to accept family planning services,

(4) the project shall provide family planning acceptors comprehensible information on the
health benefits and risks of the method chosen, including those conditions that might
render the use of the method inadvisable and those adverse side effects known to be
consequent to the use of the method,

(5) the project shall ensure that experimental contraceptive drugs and devices and
medical procedures are provided only in the context of a scientific study in which
participants are advised of potential risks and benefits;

and, not less than 60 days after the date on which the Administrator of the United States
Agency for International Development determines that there has been a violation of the
requirements contained in paragraphs (1), (2), (3), or (5) of this proviso, or a pattern or
practice of violations of the requirements contained in paragraph (4) of this proviso, the
Administrator shall submit to the Committee on International Relations and the
Committee on Appropriations of the House of Representatives and to the Committee on
Foreign Relations and the Committee on Appropriations of the Senate, a report
containing a description of such violation and the corrective action taken by the Agency.




                                                                                         31
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
